1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 17-3377
Clemente Avelino Pereida
Petitioner
v.
William P. Barr, Attorney General of the United
States
Respondent
Petition for Review of an Order of the
Board of Immigration Appeals
Submitted: October 24, 2018
Filed: March 1, 2019
Before ERICKSON, BEAM, and GRASZ,
Circuit Judges.
BEAM, Circuit Judge.

2a
Clemente Avelino Pereida, a native and citizen of
Mexico, petitions for review of the decision of the
Board of Immigration Appeals (Board) affirming the
Immigration Judge’s (IJ) grant of the Department of
Homeland Security’s (DHS’s) motion to pretermit
Pereida’s cancellation of removal application. Pereida
pleaded no contest to a Nebraska criminal attempt
charge (Neb. Rev. Stat. § 28-201(1)(b)) arising from
the use of a fraudulent social security card to obtain
employment at National Service Company of Iowa,
operating in rural Crete, Saline County, in violation
of Nebraska Revised Statute § 28-608 (2008). 1 The
determinative issue in this matter is whether
Pereida’s criminal attempt conviction qualifies as a
crime involving moral turpitude (CIMT), making him
ineligible for cancellation of removal. The criminal
impersonation offense underlying Pereida’s attempt
conviction is a divisible statute with subsections,
some of which qualify as CIMTs and one subsection
that may not. Applying the modified categorical
approach, it is not possible to ascertain which
subsection formed the basis for Pereida’s conviction.
It is Pereida’s burden to establish his eligibility for
cancellation of removal and he thus bears the adverse
consequences of this inconclusive record. Accordingly,
because Pereida cannot establish that he was eligible
for cancellation of removal, we uphold the Board’s

Nebraska Revised Statute § 28-608 was the statute under
which Pereida was arrested in July 2009. The statute was
revised, effective August 30, 2009, and is currently found at
Nebraska Revised Statute § 28-638.
1

3a
determination that he has not shown such eligibility.
Thus, we deny Pereida’s petition for review.
I.

BACKGROUND

Pereida is a citizen of Mexico who entered the
United States without authorization or inspection in,
according to his application for cancellation of
removal, approximately 1995. He has thus lived in the
United States for an extended period of time and,
according to the immigration record, has been
gainfully employed, paid taxes and with his wife,
raised his family (comprised of their three children)
here. On August 3, 2009, DHS issued a Notice to
Appear (NTA) charging Pereida with removability.
Pereida admitted the factual allegations in the NTA
and conceded the charge of removability, but in March
2011 filed an application for Cancellation of Removal
and Adjustment of Status pursuant to 8 U.S.C.
§ 1229b(b)(1). In August 2014, DHS filed a Motion to
Pretermit Pereida’s application asserting that he had
been convicted of a CIMT, which is a mandatory bar
to his requested relief, given Pereida’s no contest plea
to a charge of attempted criminal impersonation.
The IJ analyzed the substantive crime of criminal
impersonation in Nebraska underlying Pereida’s
criminal attempt charge and held that the statute is
divisible; that Pereida was necessarily convicted
under a subsection requiring the specific intent to
defraud, deceive or harm; and thus Pereida’s
conviction under this statute constituted a CIMT.
Having found Pereida’s attempted criminal
impersonation conviction to be a CIMT, the IJ
additionally held that because the conviction was

4a
punishable by a maximum term of “not more than one
year imprisonment,” Neb. Rev. Stat. § 28-106(1), it
constituted a conviction “of an offense under
subsection 1182(a)(2) [and] 1227(a)(2),” barring
Pereida from the relief requested, at least according
to the IJ’s analysis of 8 U.S.C. § 1229b(b)(1)(C). The
IJ’s decision was reviewed by the Board, which did not
go so far in its analysis.
The Board agreed that only three subsections
under Nebraska Revised Statute § 28-608 qualified as
CIMTs because each contained as a necessary
element the intent to defraud or deceive, thus making
the statute divisible. Under a modified categorical
approach, the Board found no record as to which
particular subsection of the statute Pereida was
ultimately convicted of violating. This is where the
Board ended its analysis. The Board noted that
Pereida bore the burden of proving that his particular
conviction did not bar relief. 8 U.S.C. § 1229a(c)(4).
Accordingly, the Board found that Pereida failed to
carry his burden of proving that his conviction was
not a CIMT, and that he was thus statutorily
ineligible for cancellation of removal. Pereida
petitioned this court for review of the Board’s order,
claiming that his conviction of attempted criminal
impersonation does not fall within the definition of a
CIMT. Pereida additionally claims that even if his
Nebraska conviction qualifies as a CIMT, it falls
within the petty offense exception available under 8
U.S.C. § 1182(a)(2)(A)(ii).

5a
II. DISCUSSION
We have jurisdiction pursuant to 8 U.S.C.
§ 1252(a)(2)(D) to review “constitutional claims or
questions of law raised upon a petition for review.”
“We review the [Board’s] factual determinations
under a substantial-evidence standard and its legal
conclusions de novo.” Andrade-Zamora v. Lynch, 814
F.3d 945, 948 (8th Cir. 2016). Where, as here, the
Board adopted the reasoning of the IJ, we consider the
two decisions together. Saldana v. Lynch, 820 F.3d
970, 974 (8th Cir. 2016).
To be eligible for cancellation of removal, Pereida
had to meet four requirements. 8 U.S.C. § 1229b(b)(1).
At issue here is whether, under 8 U.S.C.
§ 1229b(b)(1)(C), Pereida’s conviction for attempted
criminal impersonation is a CIMT as defined by the
Immigration and Nationality Act (INA) in 8 U.S.C.
§ 1182(a)(2) or § 1227(a)(2). If it is, and if no
exceptions apply, Pereida is ineligible for cancellation
of removal.
We first apply the “categorical approach” to
determine whether Pereida’s conviction qualifies as a
CIMT by comparing the elements of that state offense
to see if it fits within the generic definition of a crime
involving moral turpitude. Moncrieffe v. Holder, 569
U.S. 184, 190 (2013). In doing so, we presume that the
conviction rested upon nothing more than the least of
the acts criminalized by the state statute.
Gomez-Gutierrez v. Lynch, 811 F.3d 1053, 1058 (8th
Cir. 2016) (applying the realistic probability test in
the context of a CIMT analysis). Deferring to the
agency’s interpretation of this ambiguous statutory

6a
phrase left undefined by Congress, “[c]rimes involving
moral turpitude have been held to require conduct
‘that is inherently base, vile, or depraved, and
contrary to accepted rules of morality and the duties
owed between persons or to society in general.’”
Guardado-Garcia v. Holder, 615 F.3d 900, 902 (8th
Cir. 2010) (quoting Lateef v. Dep’t of Homeland Sec.,
592 F.3d 926, 929 (8th Cir. 2010)). “Crimes involving
the intent to deceive or defraud are generally
considered to involve moral turpitude.” Id. (quoting
Lateef, 592 F.3d at 929).
The underlying Nebraska offense of criminal
impersonation at issue, as it existed at the relevant
time, stated:
(1) A person commits the crime of criminal
impersonation if he or she: (a) Assumes a false
identity and does an act in his or her assumed
character with intent to gain a pecuniary
benefit for himself, herself, or another or to
deceive or harm another; (b) Pretends to be a
representative of some person or organization
and does an act in his or her pretended
capacity with the intent to gain a pecuniary
benefit for himself, herself, or another and to
deceive or harm another; (c) Carries on any
profession, business, or any other occupation
without a license, certificate, or other
authorization required by law; or (d) Without
the authorization or permission of another
and with the intent to deceive or harm
another: (i) Obtains or records personal
identification
documents
or
personal
identifying information; and (ii) Accesses or

7a
attempts to access the financial resources of
another through the use of a personal
identification
document
or
personal
identifying information for the purpose of
obtaining credit, money, goods, services, or
any other thing of value.
Neb. Rev. Stat. § 28-608 (2008).
Reviewing this statute as a whole, there appears
to be no disagreement among the parties or each of
the reviewing courts to-date that the statute defines
crimes that are not categorically CIMTs. Both the IJ
and the Board concluded that because three of the
subsections of § 28-608 contained as a necessary
element the intent to deceive, they qualified as a
CIMT. However, because a violation of subsection (c)
would not, on its face, require the same mens rea
requirement, there was a realistic probability that the
statute punished non-turpitudinous conduct as well.
We agree. Because this statute is divisible, the
inquiry does not end here. Villatoro v. Holder, 760
F.3d 872, 877 (8th Cir. 2014) (noting that upon
application of the categorical approach the inquiry
ends if the statute at issue either requires or excludes
conduct involving moral turpitude).
Having determined that not all crimes proscribed
by the Nebraska statute would qualify as a CIMT, we
apply a modified categorical approach to this divisible
statute. Mathis v. United States, 136 S. Ct. 2243, 2249
(2016) (explaining that a divisible statute “list[s]
elements in the alternative, and thereby define[s]
multiple crimes). It is at this juncture where the IJ
and Board’s analyses parted ways and where we find

8a
the heart of
Applying the
record before
subsection of
convicted.

the matter in this particular case.
modified categorical approach to the
us, we are unable to discern the
§ 28-608 under which Pereida was

It is a maxim oft repeated that under the INA, the
alien bears “the burden of proof to establish that [he]
satisfies the applicable eligibility requirements” for
cancellation of removal, 8 U.S.C. § 1229a(c)(4)(A)(i),
including that he was not “convicted of an offense”
that would disqualify him from cancellation of
removal, 8 U.S.C. § 1229b(b)(1)(C). Andrade-Zamora,
814 F.3d at 948. Here, then, it is Pereida’s burden to
establish that his conviction for attempted criminal
impersonation is not a CIMT. Yet, as Pereida himself
acknowledges and argues, there is no indication of the
subsection of the statute under which Pereida was
convicted, i.e., that the documents filed by DHS, that
included the complaint, are insufficient to clarify the
matter. This acknowledgment, however, is not in
Pereida’s favor. There are only a “limited class of
documents (for example, the indictment, jury
instructions, or plea agreement and colloquy) [that
this court can review] to determine what crime, with
what elements, [Pereida] was convicted of.” Mathis,
136 S. Ct. at 2249. On this record, without more, or
without any indication that the record is complete, as
is, we are unable to make the requisite determination,
as the Board itself indicated. Even assuming a
complete record is before us, the fact that Pereida is
not to blame for the ambiguity surrounding his
criminal conviction does not relieve him of his
obligation to prove eligibility for discretionary relief
under this circuit’s precedent. Andrade-Zamora, 814

9a
F.3d at 949 (“While the government bears the burden
to prove the alien is deportable or removable, it is the
alien’s burden under the INA to prove he is eligible
for cancellation of removal[;] … [or, stated differently]
to prove he did not commit an offense that disqualifies
him from cancellation of removal.”); Lucio-Rayos v.
Sessions, 875 F.3d 573, 581-82 (10th Cir. 2017)
(placing the ultimate burden on the alien where an
alien sought discretionary relief and none of the
documents in the record indicated under what
provision he was convicted), cert. denied, 2019 WL
113529 (Jan. 7, 2019); Syblis v. Att’y Gen. of the U.S.,
763 F.3d 348, 356 (3d Cir. 2014) (joining the Fourth,
Seventh, Ninth and Tenth Circuits in holding that an
inconclusive record is insufficient to satisfy a
noncitizen’s burden of proving eligibility for
discretionary relief). We are bound by our precedent
absent en banc reconsideration or a superseding
contrary decision by the Supreme Court regarding
this unique situation.
Our inability to discern the particular crime for
which Pereida was convicted forecloses any
substantive discussions advanced by Pereida on
appeal. For example, Pereida references case law
from sister circuits in support of his argument that
his particular offense of attempted criminal
impersonation is not a CIMT, pointing out various
viewpoints on the theoretical boundaries and legal
uncertainty in the arena of defining what, exactly,
constitutes (or should constitute) moral turpitude in
situations such as this. See, e.g., Beltran-Tirado v.
INS, 213 F.3d 1179, 1184-85 (9th Cir. 2000); Arias v.
Lynch, 834 F.3d 823, 830-36 (7th Cir. 2016) (Posner,
J., concurring). Pereida also alternatively argues that

10a
even if this court were to hold that his offense
qualifies as a CIMT, the petty offense exception, 8
U.S.C. § 1182(a)(2)(A)(ii)(II), carries the day on these
facts. However, the absence of the necessary
substantive determination regarding the existence or
not of a CIMT in this case precludes any additional
discussion and ends the inquiry before us. 2
III. CONCLUSION
For the foregoing reasons, we deny Pereida’s
petition for review.

We do note that whether or not there is a determination
regarding the applicability of the petty theft exception under 8
U.S.C. § 1182(a)(2)(A)(ii)(II), Pereida is ultimately foreclosed in
seeking cancellation of removal. This court held in
Andrade-Zamora that the cross-reference in 8 U.S.C.
§ 1229b(b)(1)(C) only refers to the list of offenses and not the
immigration consequences. 814 F.3d at 950-51. Accordingly,
Pereida would fail to carry his burden to show that he has not
been convicted of an offense under section 1227(a)(2), which
includes CIMTs “for which a sentence of one year or longer may
be imposed,” because Pereida’s Nebraska conviction was
punishable by a maximum term of “not more than one year
imprisonment.” 8 U.S.C. §§ 1227(a)(2)(A)(i)(II), 1229b(b)(1)(C);
Neb. Rev. Stat. §§ 28-106(1), 28-201(4)(e).
2

11a
APPENDIX B
U.S. Department of Justice
Executive Office for Immigration Review
Falls Church, Virginia 22041
Decision of the Board of Immigration Appeals
File: A093 333 944 – Omaha, NE
Date: OCT 19, 2017
In re: Clemente AVELINO PEREIDA
IN REMOVAL PROCEEDINGS
APPEAL
ON BEHALF OF
RESPONDENT:

Raul F. Guerra, Esquire

ON BEHALF OF DHS:
APPLICATION:

Matthew E. Morrissey
Assistant Chief Counsel

Cancellation of removal under
section 240A(b) of the Act

The respondent, a native and citizen of Mexico,
appeals from the Immigration Judge’s decision dated
September 25, 2014, denying his application for
cancellation under section 240A(b)(1) of the
Immigration
and
Nationality
Act,
8 U.S.C.
§ 1229b(b)(1). The Department of Homeland Security
(“DHS”) opposes the appeal. The appeal will be
dismissed.

12a
The respondent concedes that he is removable as
charged (IJ at 1; Tr. at 2) and, therefore, the issue on
appeal is whether he qualifies for cancellation of
removal, a form of relief that is available only to an
applicant who proves that he “has not been convicted
of an offense under section 212(a)(2) [or] 237(a)(2)” of
the Act. See section 240A(b)(1)(C) of the Act. The
Immigration Judge determined that the respondent
cannot satisfy that requirement because in 2010 he
was convicted of attempted Criminal Impersonation,
in violation of Nebraska Revised Statutes section
28-201, 1 a crime involving moral turpitude (“CIMT”)
for which a sentence of 1 year or longer may be
imposed
under
sections
212(a)(2)(i)(I)
or
237(a)(2)(A)(i) of the Act, 8 U.S.C. §§ 1182(a)(2)(i)(I),
1227(a)(2)(A)(i) (IJ at 4-5). We affirm the Immigration
Judge’s decision.
To determine whether the respondent’s conviction
is a CIMT under the Act, we employ the categorical
approach. Matter of J-G-D-F-, 27 I&N Dec. 82, 83
(BIA 2017). “This approach requires us to focus on the
minimum conduct that has a realistic probability of
being prosecuted under the statute of conviction,
rather than on the facts underlying the respondent’s
particular violation of that statute.” Matter of SilvaTrevino, 26 I&N Dec. 826, 831 (BIA 2016); see also
Although the respondent was convicted of attempted criminal
impersonation, it is well-established that “there is no distinction
for immigration purposes in respect to moral turpitude, between
the commission of the substantive crime and the attempt to
commit it.” See Matter of Davis, 20 I&N Dec. 536, 545 (BIA 1992)
(quoting Matter of Awaijane, 14 I&N Dec. 117, 118-19 (BIA
1972)).
1

13a
Villatoro v. Holder, 760 F.3d 872, 877-79 (8th Cir.
2014) (adopting the realistic probability standard in
deciding whether a crime categorically involves moral
turpitude).
The Act does not define offenses constituting
crimes involving moral turpitude. However, the
phrase moral turpitude refers generally to conduct
that is inherently base, vile, or depraved, and
contrary to the accepted rules of morality and the
duties owed between persons or to society in general.
See, e.g., Matter of Solon, 24 I&N Dec. 239, 240
(BIA 2007); Matter of Torres-Varela, 23 I&N Dec.
78 (BIA 2001). It has long been held that crimes
involving the intent to deceive or defraud are
generally considered to involve moral turpitude.
Jordan v. De George, 341 U.S. 223, 232 (1951); Matter
of Kochlani, 24 I&N Dec. 128, 130 (BIA 2007); Matter
of Flores, 17 I&N Dec. 225, 227-28 (BIA 1980); Lateef
v. Dep’t of Homeland Sec., 592 F.3d 926, 929 (8th Cir.
2010); Guardado-Garcia v. Holder, 615 F.3d 900, 902
(8th Cir. 2010).
At the time of the respondent’s conviction,
Nebraska’s criminal impersonation statute was
located at section 28-608 and provides that:
(1) A person commits the crime of criminal
impersonation if he or she:
(a) Assumes a false identity and does an
act in his or her assumed character with
intent to gain a pecuniary benefit for
himself, herself, or another, or to deceive
or harm another; or

14a
(b) Pretends to be a representative of
some person or organization and does an
act in his or her pretended capacity with
the intent to gain a pecuniary benefit for
himself, herself, or another, and to
deceive or harm another; or
(c) Carries on any profession, business,
or any other occupation without a license,
certificate,
or
other
authorization
required by law; or
(d) Without the authorization or
permission of another and with the intent
to deceive or harm another:
(i) Obtains or records personal
identification documents or personal
identifying information; and
(ii) Accesses or attempts to access the
financial
resources
of
another
through the use of a personal
identification document or personal
identifying information for the
purpose of obtaining credit, money,
goods, services, or any other thing of
value.
Neb. Rev. Stat. § 28-608 (2010).
We agree with the Immigration Judge’s
determination that only convictions under section
28-608(a), (b), or (d) qualify as CIMTs because each of
these subsections contain as a necessary element the

15a
intent to defraud or deceive (IJ at 3-4). See Lateef v.
Dep’t of Homeland Sec., 592 F.3d at 929; GuardadoGarcia v. Holder, 615 F.3d at 902. Thus, the statute
is overbroad relative to the definition of a CIMT.
However, the moral turpitude inquiry does not end
here. Where an offense is not categorically a CIMT,
the modified categorical approach allows for
consideration of the respondent’s conviction record to
identify the statutory provision that the respondent
was convicted of violating, but only if the statute is
divisible. See Descamps v. United States, 133 S. Ct.
2276, 2281(2013); Mathis v. United States, 136 S. Ct.
2243 (2016); see also Matter of Chairez, 26 I&N Dec.
819 (BIA 2016) (holding that the concept of divisibility
as embodied in Descamps and Mathis “applies in
immigration proceedings to the same extent that it
applies in criminal sentencing proceedings”).
A state statute is divisible if it sets out alternative
elements of the offense, as opposed to alternative
means of committing the offense, and “at least one
(but not all) of the listed offenses or combinations of
disjunctive elements is a ‘categorical match’ to the
relevant generic standard.” Matter of Chairez, 26 I&N
Dec. at 822 (citing Descamps v. United States, 133 S.
Ct. at 2283). The difference between whether
something is an “element” as opposed to a “means” is
determined by whether it requires jury unanimity. Id.
at 822-23 (citing Mathis v. United States, 136 S. Ct. at
2248).
Upon our examination of the statute, we conclude
that section 28-608 is divisible. Section 28-608 is
divided into several subsections, each describing
separate crimes with different punishments. See Neb.

16a
Rev. Stat. § 28-608; see also Mathis v. United States,
136 S. Ct. at 2256 (explaining that the statute on its
face may resolve the means versus elements issue,
noting that if the statutory alternatives carry
different punishments, then under Apprendi v. New
Jersey, 530 U.S. 466, 490 (2000), they must be
elements).
As the Nebraska statute is divisible, we apply the
modified categorical approach to a limited class of
court documents in the record of conviction to
determine the respondent’s actual crime of conviction.
See Shepard v. United States, 544 U.S. 13, 27 (2005)
(holding that the record of conviction is “limited to the
terms of the charging document, the terms of a plea
agreement or transcript of colloquy between judge
and defendant in which the factual basis for the plea
was confirmed by the defendant, or to some
comparable judicial record of this information”). Here,
the DHS submitted a certified copy of the Complaint,
which charged the respondent with attempt of
criminal impersonation under section 28-608 for “use
[of] a fraudulent Social Security card to obtain
employment at National Service Company of Iowa,
located in rural Crete, Saline County, Nebraska,
value $500.00 or more but less than $1500,” in
violation of section 28-201(1)(b)of the Nebraska
Revised Statutes (DHS Filing, Conviction Records at
4 (received August 28, 2014)). The DHS also
submitted a certified copy of the Journal Entry and
Order indicating that the respondent pled no contest
to violating section 28-201 of the Nebraska Revised
Statutes, for attempt of a class 3A or class 4 felony
(DHS Filing, Conviction Records at 1-2 (received
August 28, 2014)).

17a
On appeal, the respondent argues that the
Complaint is insufficient to conclusively establish the
particular offense he was convicted of violating
(Respondent’s Br. at 5). We agree with the respondent
on this point. The complaint charges the respondent
of using a fraudulent social security card to obtain
employment, which would seem to support a finding
that the crime underlying the respondent’s attempt
offense involved fraud or deceit. See Guardado-Garcia
v. Holder, 615 F.3d at 901-02 (holding that misuse of
a social security number to obtain employment is a
CIMT). However, the entry order does not specify the
particular subsection of the substantive statute the
respondent was ultimately convicted of violating.
In the context of relief for removal, the respondent
bears the burden of proving that his particular
conviction does not bar relief. Andrade-Zamora v.
Lynch, 814 F.3d 945, 948-49 (8th Cir. 2016)
(explaining that the alien bears burden of showing
eligibility for discretionary cancellation of removal).
The respondent has not done so and has not carried
his burden of proving that his conviction is not CIMT.
See sections 240(c)(4)(A)-(B) of the Act; 8 C.F.R.
§ 1240.8(d). Thus, the respondent is statutorily
ineligible for cancellation.
Finally, the Immigration Judge granted the
respondent a 60-day voluntary departure period,
conditioned upon the posting of a voluntary departure
bond in the amount of $500.00 to the DHS within five
business days from the date of the order. The
respondent has submitted timely proof of having paid
the voluntary departure bond. Therefore, the period
of voluntary departure will be reinstated.

18a
Accordingly, the following orders will be entered.
ORDER: The appeal is dismissed.
FURTHER ORDER: Pursuant to the Immigration
Judge’s order and conditioned upon compliance with
conditions set forth by the Immigration Judge and the
statute, the respondent is permitted to voluntarily
depart the United States, without expense to the
Government, within 60 days from the date of this
order or any extension beyond that time as may be
granted by the DHS. See section 240B(b) of the Act,
8 U.S.C. § 1229c(b); see also 8 C.F.R. §§ 1240.26(c), (f).
In the event the respondent fails to voluntarily depart
the United States, the respondent shall be removed
as provided in the Immigration Judge’s order.
NOTICE: If the respondent fails to voluntarily
depart the United States within the time period
specified, or any extensions granted by the DHS, the
respondent shall be subject to a civil penalty as
provided by the regulations and the statute and shall
be ineligible for a period of 10 years for any further
relief under section 240B and sections 240A, 245, 248,
and 249 of the Act. See section 240B(d) of the Act.
WARNING: If the respondent files a motion to
reopen or reconsider prior to the expiration of the
voluntary departure period set forth above, the grant
of voluntary departure is automatically terminated;
the period allowed for voluntary departure is not
stayed, tolled, or extended. If the grant of voluntary
departure is automatically terminated upon the filing
of a motion, the penalties for failure to depart under

19a
section 240B(d) of the Act shall not apply. See 8 C.F.R.
§ 1240.26(e)(1).
WARNING: If, prior to departing the United
States, the respondent files any judicial challenge to
this administratively final order, such as a petition for
review pursuant to section 242 of the Act, 8 U.S.C.
§ 1252, the grant of voluntary departure is
automatically terminated, and the alternate order of
removal shall immediately take effect. However, if the
respondent files a petition for review and then
departs the United States within 30 days of such
filing, the respondent will not be deemed to have
departed under an order of removal if the alien
provides to the DHS such evidence of his or her
departure that the Immigration and Customs
Enforcement Field Office Director of the DHS may
require and provides evidence DHS deems sufficient
that he or she has remained outside of the United
States. The penalties for failure to depart under
section 240B(d) of the Act shall not apply to an alien
who files a petition for review, notwithstanding any
period of time that he or she remains in the United
States while the petition for review is pending. See
8 C.F.R. § 1240.26(i).
/s/

FOR THE BOARD

20a
APPENDIX C
UNITED STATES DEPARTMENT OF JUSTICE
EXECUTIVE OFFICE FOR
IMMIGRATION REVIEW
IMMIGRATION COURT
OMAHA, NEBRASKA
File #: A093-333-944

Date: September 18, 2014

IN THE MATTER OF:

)
)
Clemente AVELINO Pereida, ) IN REMOVAL
) PROCEEDINGS
Respondent.
)
CHARGES:

Section 212(a)(6)(A)(i) of the
Immigration and Nationality Act
(“INA” or “the Act”)—Alien
present in the United States
without being admitted or
paroled.

APPLICATION:

Motion to Pretermit 42B
Application

ON BEHALF OF RESPONDENT:
Raul F. Guerra, Esq.
Monzón Law, P.C. L.L.O.
650 J Street, Suite 401
Lincoln, NE 68508
ON BEHALF OF THE GOVERNMENT:
Matthew E. Morrissey, Assistant Chief Counsel
U.S. Department of Homeland Security
Immigration and Customs Enforcement

21a
1717 Avenue H, Suite 174
Omaha, NE 68110
DECISION OF THE IMMIGRATION JUDGE
I.

Background and Procedural History

Respondent is a native and citizen of Mexico who
arrived in the United States at or near Nogales,
Arizona on or about an unknown date and was not
then admitted or paroled after inspection by an
immigration officer. Exh. 1. On August 3, 2009, the
Department of Homeland Security (“DHS” or “the
government”) served Respondent with a Notice to
Appear (“NTA”) charging him with removability
pursuant to the above-captioned section of the Act.
See id. Respondent admitted the factual allegations
contained in the NTA and conceded the charge of
removability. See id. On March 25, 2011, Respondent
filed an EOIR-42B, Application for Cancellation of
Removal and Adjustment of Status for Certain
Nonpermanent Residents pursuant to section
240A(b)(1) of the Act. Exh. 2.
On August 28, 2014, DHS filed a Motion to
Pretermit Respondent’s 42B application asserting
that he has been convicted of a crime involving moral
turpitude (“CIMT”) that is a mandatory bar to the
requested relief. See DHS Motion Brief to Pretermit
Respondent’s Cancellation of Removal Application
(Aug. 28, 2014) (“Motion to Pretermit”); DHS Filing,
Conviction Records (Aug. 28, 2014) (“Conviction
Records”). On September 9, 2014, Respondent filed a
brief opposing the motion to pretermit. See
Respondent’s Brief in Opposition to DHS’s Motion to

22a
Pretermit (Sept. 9, 2014). For the following reasons,
the Court will grant the government’s motion and
pretermit Respondent’s 42B application.
II. Statement of Law
Cancellation of removal relief is available to a
removable nonpermanent resident alien who: (1) has
been physically present in the United States for a
continuous period of at least ten years immediately
preceding the application, (2) has been a person of
good moral character during that time, (3) has not
been convicted of an offense under sections 212(a)(2),
237(a)(2), or 237(a)(3) of the INA, and (4) establishes
that removal would result in exceptional and
extremely unusual hardship to the alien’s spouse,
parent, or child, who is a United States citizen or
lawful permanent resident. INA § 240A(b)(1). An
alien who has committed a CIMT is ineligible for
cancellation of removal relief because he or she cannot
be found to have good moral character. See INA
§ 101(f)(3). Furthermore, an alien who has been
convicted of a CIMT is ineligible for cancellation of
removal relief because he or she has been convicted of
an offense under sections 212(a)(2) and 237(a)(2) of
the INA. INA §§ 212(a)(2)(A)(i)(I), 237(a)(2)(A)(i),
240A(b)(1)(C).
The term “crime involving moral turpitude” is
ambiguous. See Bobadilla v. Holder, 679 F.3d 1052,
1054 (8th Cir. 2012). Generally, a crime involves
moral turpitude if it involves a reprehensible act
accompanied by some degree of scienter. See Matter of
Silva-Trevino, 24 I&N Dec. 687, 706 (A.G. 2008). In
other words, a CIMT involves conduct that is

23a
“inherently base, vile, or depraved, and contrary to
the accepted rules of morality and the duties owed
between persons or to society in general.” Matter of
Torres-Varela, 23 I&N Dec. 78, 83 (BIA 2001). Neither
the seriousness of the offense nor the severity of the
sentence imposed is determinative of whether a crime
involves moral turpitude. See id. at 84. Instead, the
intent required by the statute of conviction is critical
to the determination. See Hernandez-Perez v. Holder,
569 F.3d 345, 348 (8th Cir. 2009).
To determine whether a respondent’s offense
qualifies as a CIMT, courts first apply the categorical
approach to ascertain whether the statute of
conviction necessarily involves moral turpitude. See
Bobadilla, 679 F.3d at 1055-56; Silva-Trevino, 24
I&N Dec. at 704. Then, if a “realistic probability”
exists that the statute punishes conduct that does not
involve moral turpitude, courts apply the modified
categorical approach and look to the respondent’s
record of conviction to determine whether his specific
conduct involved moral turpitude. See Bobadilla, 679
F.3d at 1055-56; Silva-Trevino, 24 I&N Dec. at 704.
The record of conviction includes documents such as
the indictment, information, guilty plea, plea
transcript, judgment of conviction, and sentence. See
Chanmouny v. Ashcroft, 376 F.3d 810, 813 (8th Cir.
2004); Silva-Trevino, 24 I&N Dec. at 704. Finally, if
the respondent’s record of conviction does not resolve
the CIMT issue, courts may consider any additional
evidence that is “necessary or appropriate.” See SilvaTrevino, 24 I&N Dec. at 704.

24a
III. Analysis and Findings
Pursuant to 8 C.F.R. section 1240.8(d), “if the
evidence indicates that one or more of the grounds for
mandatory denial of [an] application for relief may
apply, the alien shall have the burden of proving by a
preponderance of the evidence that such grounds do
not apply.” Here, DHS asserts that Respondent’s
conviction for attempted criminal impersonation is a
CIMT that bars the requested relief. See Motion to
Pretermit; Conviction Records. Respondent therefore
bears the burden to demonstrate by a preponderance
of the evidence that his conviction is not a mandatory
bar to cancellation of removal under section
240A(b)(1) of the Act. See 8 C.F.R. § 1240.8(d).
DHS filed a certified copy of a Journal Entry and
Order, indicating that, on June 14, 2010, Respondent
pled no contest and was found guilty of violating
Nebraska Revised Statute section 28-201, for
“attempt of a class 3A or class 4 felony.” See
Conviction Records at 2. Section 28-201, Nebraska’s
criminal attempt statute, provides that criminal
attempt is a “Class I misdemeanor when the crime
attempted is a Class IIIA or Class IV felony.” Neb.
Rev.
Stat.
§ 28-201(4)(e)
(2010).
Although
Respondent’s conviction is for the inchoate crime of
attempt, as opposed to the completed crime, the moral
turpitude analysis draws “no distinction between the
commission of the substantive crime and the attempt
to commit it.” See Matter of Vo, 25 I&N Dec. 426, 428
(BIA 2011). The Board of Immigration Appeals has
held that “[a]n attempt involves the specific intent to
commit the substantive crime, and if commission of
the substantive crime involves moral turpitude, then

25a
so does the attempt, because moral turpitude inheres
in the intent.” Id.
Accordingly, the Court must determine whether
the substantive crime underlying Respondent’s
attempt conviction involves moral turpitude.
Although the Journal Entry and Order does not
reflect the underlying offense attempted, DHS
submitted the corresponding Complaint, which
charges Respondent with attempted criminal
impersonation under former Neb. Rev. Stat. section
28-608, a Class IV felony. See Conviction Records at
2-4. The Complaint is dated June 8, 2010, and the
Journal Entry and Order was entered June 14, 2010,
the date of Respondent’s hearing in the case. See id.
at 1-4. All documents bear the same case number—
CR 10-197. See id. The Court therefore finds the
Complaint to be sufficiently reliable evidence that
criminal impersonation was the substantive crime
underlying Respondent’s attempt conviction. In 2010,
Nebraska’s criminal impersonation statute was
located at section 28-608 and provided:
(1) A person commits the crime of criminal
impersonation if he or she:
(a) Assumes a false identity and does an act
in his or her assumed character with intent to
gain a pecuniary benefit for himself, herself,
or another or to deceive or harm another;
(b) Pretends to be a representative of some
person or organization and does an act in his
or her pretend capacity with the intent to gain

26a
a pecuniary benefit for himself, herself, or
another and to deceive or harm another;
(c) Carries on any profession, business, or any
other occupation without a license, certificate,
or other authorization required by law; or
(d) Without the authorization or permission of
another and with the intent to deceive or
harm another: (i) Obtains or records personal
identification
documents
or
personal
identifying information; and (ii) Accesses or
attempts to access the financial resources of
another through the use of a personal
identification
document
or
personal
identifying information for the purpose of
obtaining credit, money, goods, services, or
any other thing of value.
Neb. Rev. Stat. § 28-608 (2010). 1 The Court finds that
a conviction under subsection (a), (b), or (d) of the
statute is a CIMT because each subsection contains
as a necessary element the intent to defraud, deceive,
or harm. See id. Crimes that require proof of a specific
intent to defraud or deceive involve moral turpitude.
See Jordan v. De George, 341 U.S. 223, 232 (1951);
Guardado-Garcia v. Holder, 615 F.3d 900, 902 (8th
Cir. 2010). Additionally, the intent to harm another
person by assuming a false identity or representative
capacity, or by using personal identifying information
to access financial resources, reflects a sufficiently
Nebraska’s criminal impersonation statute is now located at
Neb. Rev. Stat. § 28-638 (2014).
1

27a
depraved state of mind to render a conviction under
subsections (a), (b), or (d) morally turpitudinous.
Subsection (c), by contrast, contains no mens rea
requirement and punishes even unknowing licensure
violations. Because a violation of subsection (c) does
not require a vicious motive or corrupt mind, a
realistic probability exists that former Neb. Rev. Stat.
section 28-608 punishes non-turpitudinous conduct.
See Bobadilla, 679 F.3d at 1055-56; Silva-Trevino, 24
I&N Dec. at 704.
Accordingly, the Court turns to the modified
categorical approach to determine whether
Respondent was convicted under subsection (a), (b), or
(d), rendering his offense a CIMT, or under subsection
(c). The Complaint charges that Respondent
intentionally completed a substantial step in a course
of conduct intended to culminate in commission of
criminal impersonation, when he “did use a
fraudulent Social Security card to obtain employment
at National Service Company of Iowa, located in rural
Crete, Saline County, Nebraska, value $500 or more
but less than $1500.” See Conviction Records at 4. The
Complaint demonstrates that Respondent was not
convicted of attempting to carry on a business without
a license under subsection (c) of the criminal
impersonation statute, and he was therefore
necessarily convicted under subsection (a), (b), or (d),
any of which involves moral turpitude. The Court
concludes that the substantive crime underlying
Respondent’s attempt conviction was a subsection of
Neb. Rev. Stat. section 28-608 requiring the specific
intent to defraud, deceive, or harm, and therefore
finds that the offense is a CIMT.

28a
Having found Respondent’s attempted criminal
impersonation conviction to be a CIMT, the Court
must next determine whether it renders him
ineligible for cancellation of removal relief as a
conviction “of an offense under sections 212(a)(2),
237(a)(2), or 237(a)(3)” of the Act. See INA
§ 240A(b)(1)(C). An alien who has been convicted of a
CIMT for which the maximum possible sentence is
less than one year, and which qualifies under the
“petty offense” exception, is not convicted of an offense
“described under” either section 212(a)(2) or 237(a)(2)
of the Act and is not barred from cancellation of
removal relief if otherwise eligible. Matter of Cortez,
25 I&N Dec. 301, 307 (BIA 2010); see also Matter of
Pedroza, 25 I&N Dec. 312, 314 (BIA 2010). The petty
offense exception at INA section 212(a)(2)(A)(ii)(II)
exempts from inadmissibility an individual who has
committed only one CIMT for which the maximum
possible penalty is imprisonment for one year or less,
and for which the alien was sentenced to a term of
imprisonment of six months or less (regardless of the
extent to which the sentence was ultimately
executed). See INA § 212(a)(2)(A)(ii)(II). Therefore,
conviction of a single CIMT offense, which is
punishable by a maximum term of imprisonment of
less than one year and for which the alien was
sentenced to six months or less, does not bar 42B
relief. See, e.g., Pedroza, 25 I&N Dec. at 314-15.
However, conviction of a CIMT for which a
sentence of one year or longer may be imposed is an
offense “described under” section 237(a)(2)(A)(i) of the
Act that renders an alien ineligible for cancellation of
removal pursuant to INA section 240A(b)(1)(C), even
if the alien is charged under section 212 grounds of

29a
inadmissibility or is eligible for the petty offense
exception. See Cortez, 25 I&N Dec. at 307 (clarifying
Matter of Almanza, 24 I&N Dec. 771 (BIA 2009)). The
statutory language pertaining only to aspects of
immigration law—such as the requirement at section
237(a)(2)(A)(i)(I) that the CIMT in question was
“committed within five years … after the date of
admission”—is not relevant because only language
specifically pertaining to the criminal offense, such as
the crime itself and the sentence potentially and
actually imposed, should be considered in
determining which offenses bar cancellation of
removal relief. Id.
In the instant case, Respondent’s conviction for
criminal attempt under Neb. Rev. Stat. section 28-201
is a Class I misdemeanor. See Conviction Records at
2; Neb. Rev. Stat. § 28-201(4)(e) (2010). A Class I
misdemeanor is punishable in Nebraska by a
maximum term of “not more than one year
imprisonment.” See Neb. Rev. Stat. § 28-106(1). In
other words, conviction under the statute could result
in imprisonment for a term of one year. See id.
Accordingly, the maximum possible sentence for
Respondent’s conviction is not less than one year, but
one year or less, and it is therefore an offense
described under section 212(a)(2) that precludes 42B
relief. See Cortez, 25 I&N Dec. at 307. Furthermore,
because a sentence of one year may be imposed, it is
an offense described under section 237(a)(2). See id.
Accordingly, Respondent’s attempted criminal
impersonation crime is a conviction “of an offense
under sections 212(a)(2) [and] 237(a)(2)” of the Act,
which constitutes a mandatory bar to 42B relief. See
INA § 240A(b)(1)(C).

30a
IV. Conclusion
Because Respondent has not demonstrated by a
preponderance of the evidence that his conviction for
attempted criminal impersonation is not a mandatory
bar to the requested relief, the Court will grant DHS’s
motion to pretermit his 42B application. See 8 C.F.R.
§ 1240.8(d). Accordingly, the following order will be
entered:
ORDER OF THE IMMIGRATION JUDGE
IT IS HEREBY ORDERED that DHS’s Motion
to Pretermit Respondent’s Cancellation of
Removal Application is GRANTED.
/s/ JACK L. ANDERSON
JACK L. ANDERSON
Immigration Judge

31a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 17-3377
Clemente Avelino Pereida
Petitioner
v.
William P. Barr, Attorney General of the
United States
Respondent
Immigrant Legal Resource Center, et al.
Amici on Behalf of Petitioner
Petition for Review of an Order of the Board of
Immigration Appeals
(A093-333-944)
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
July 02, 2019

32a
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

33a
APPENDIX E
United States Code
Title 8. Aliens and Nationality
8 U.S.C. § 1182
§ 1182. Inadmissible aliens
(a) Classes of aliens ineligible for visas or admission
Except as otherwise provided in this chapter, aliens
who are inadmissible under the following paragraphs
are ineligible to receive visas and ineligible to be
admitted to the United States:
***
(2) Criminal and related grounds
(A) Conviction of certain crimes
(i) In general
Except as provided in clause (ii), any alien
convicted of, or who admits having committed, or
who admits committing acts which constitute the
essential elements of—
(I) a crime involving moral turpitude (other
than a purely political offense) or an attempt or
conspiracy to commit such a crime, or
(II) a violation of (or a conspiracy or attempt to
violate) any law or regulation of a State, the
United States, or a foreign country relating to a

34a
controlled substance (as defined in section 802
of Title 21),
is inadmissible.

35a
APPENDIX F
United States Code
Title 8. Aliens and Nationality
8 U.S.C. § 1227
§ 1227. Deportable aliens
(a) Classes of deportable aliens
Any alien (including an alien crewman) in and
admitted to the United States shall, upon the order of
the Attorney General, be removed if the alien is within
one or more of the following classes of deportable
aliens:
***
(2) Criminal offenses
(A) General crimes
(i) Crimes of moral turpitude
Any alien who—
(I) is convicted of a crime involving moral
turpitude committed within five years (or 10
years in the case of an alien provided lawful
permanent resident status under section
1255(j) of this title) after the date of admission,
and
(II) is convicted of a crime for which a sentence
of one year or longer may be imposed,
is deportable.

36a
APPENDIX G
United States Code
Title 8. Aliens and Nationality
8 U.S.C. § 1229a
§ 1229a. Removal proceedings
***
(c) Decision and burden of proof
***
(4) Applications for relief from removal
(A) In general
An alien applying for relief or protection from
removal has the burden of proof to establish that
the alien—
(i)
satisfies
the
requirements; and

applicable

eligibility

(ii) with respect to any form of relief that is
granted in the exercise of discretion, that the
alien merits a favorable exercise of discretion.

37a
APPENDIX H
United States Code
Title 8. Aliens and Nationality
8 U.S.C. § 1229b
§ 1229b. Cancellation of removal; adjustment of
status
(a) Cancellation of removal for certain permanent
residents
The Attorney General may cancel removal in the case
of an alien who is inadmissible or deportable from the
United States if the alien—
(1) has been an alien lawfully admitted for
permanent residence for not less than 5 years,
(2) has resided in the United States continuously for
7 years after having been admitted in any status, and
(3) has not been convicted of any aggravated felony.
(b) Cancellation of removal and adjustment of status
for certain nonpermanent residents
(1) In general
The Attorney General may cancel removal of, and
adjust to the status of an alien lawfully admitted for
permanent residence, an alien who is inadmissible or
deportable from the United States if the alien—
(A) has been physically present in the United
States for a continuous period of not less than 10

38a
years immediately preceding the date of such
application;
(B) has been a person of good moral character
during such period;
(C) has not been convicted of an offense under
section 1182(a)(2), 1227(a)(2), or 1227(a)(3) of this
title, subject to paragraph (5); and
(D) establishes that removal would result in
exceptional and extremely unusual hardship to the
alien’s spouse, parent, or child, who is a citizen of
the United States or an alien lawfully admitted for
permanent residence.

39a
APPENDIX I
Code of Federal Regulations
Title 8. Aliens and Nationality
8 C.F.R. § 1240.8
§ 1240.8. Burdens of proof in removal
proceedings
(a) Deportable aliens. A respondent charged with
deportability shall be found to be removable if the
Service proves by clear and convincing evidence that
the respondent is deportable as charged.
(b) Arriving aliens. In proceedings commenced upon a
respondent’s arrival in the United States or after the
revocation or expiration of parole, the respondent must
prove that he or she is clearly and beyond a doubt
entitled to be admitted to the United States and is not
inadmissible as charged.
(c) Aliens present in the United States without being
admitted or paroled. In the case of a respondent
charged as being in the United States without being
admitted or paroled, the Service must first establish
the alienage of the respondent. Once alienage has been
established, unless the respondent demonstrates by
clear and convincing evidence that he or she is lawfully
in the United States pursuant to a prior admission, the
respondent must prove that he or she is clearly and
beyond a doubt entitled to be admitted to the United
States and is not inadmissible as charged.
(d) Relief from removal. The respondent shall have the
burden of establishing that he or she is eligible for any

40a
requested benefit or privilege and that it should be
granted in the exercise of discretion. If the evidence
indicates that one or more of the grounds for
mandatory denial of the application for relief may
apply, the alien shall have the burden of proving by a
preponderance of the evidence that such grounds do
not apply.

41a
APPENDIX J
Revised Statutes of Nebraska
Chapter 28. Crimes and Punishments
Neb. Rev. Stat. § 28-201 (2008)
§ 28-201. Criminal attempt; conduct; penalties
(1) A person shall be guilty of an attempt to commit a
crime if he or she:
(a) Intentionally engages in conduct which would
constitute the crime if the attendant circumstances
were as he or she believes them to be; or
(b) Intentionally engages in conduct which, under
the circumstances as he or she believes them to be,
constitutes a substantial step in a course of conduct
intended to culminate in his or her commission of
the crime.
(2) When causing a particular result is an element of
the crime, a person shall be guilty of an attempt to
commit the crime if, acting with the state of mind
required to establish liability with respect to the
attendant circumstances specified in the definition of
the crime, he or she intentionally engages in conduct
which is a substantial step in a course of conduct
intended or known to cause such a result.
(3) Conduct shall not be considered a substantial step
under this section unless it is strongly corroborative
of the defendant’s criminal intent.
(4) Criminal attempt is:

42a
***
(e) A Class I misdemeanor when the crime
attempted is a Class IIIA or Class IV felony;

43a
APPENDIX K
Revised Statutes of Nebraska
Chapter 28. Crimes and Punishments
Neb. Rev. Stat. § 28-608 (2008)
§ 28-608. Criminal impersonation; penalty;
restitution
(1) A person commits the crime of criminal
impersonation if he or she:
(a) Assumes a false identity and does an act in his
or her assumed character with intent to gain a
pecuniary benefit for himself, herself, or another or
to deceive or harm another;
(b) Pretends to be a representative of some person
or organization and does an act in his or her
pretended capacity with the intent to gain a
pecuniary benefit for himself, herself, or another
and to deceive or harm another;
(c) Carries on any profession, business, or any other
occupation without a license, certificate, or other
authorization required by law; or
(d) Without the authorization or permission of
another and with the intent to deceive or harm
another:
(i) Obtains or records personal identification
documents or personal identifying information;
and

44a
(ii) Accesses or attempts to access the financial
resources of another through the use of a personal
identification document or personal identifying
information for the purpose of obtaining credit,
money, goods, services, or any other thing of value.

